<html>
<title> - FLIPPING THE SWITCH ON RURAL DIGITAL ENTREPRENEURSHIP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








         FLIPPING THE SWITCH ON RURAL DIGITAL ENTREPRENEURSHIP

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 13, 2019

                               __________



 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
			                                     





            Small Business Committee Document Number 116-011
             Available via the GPO Website: www.govinfo.gov





                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
35-340                    WASHINGTON : 2019                 

























                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Mr. Dana F. Connors, President & CEO, Maine State Chamber of 
  Commerce, Augusta, ME, testifying on behalf of the Maine State 
  Chamber........................................................     5
Mr. Bill Ingersoll, Owner, Bikes, Trikes, and Quads, Sloansville, 
  NY.............................................................     6
Ms. Afton Stout, Owner, My Dinosaur Dreams, State Center, IA.....     8
Mr. Jake Ward, President, Connected Commerce Council, Washington, 
  DC.............................................................    10

                                APPENDIX

Prepared Statements:
    Mr. Dana F. Connors, President & CEO, Maine State Chamber of 
      Commerce, Augusta, ME, testifying on behalf of the Maine 
      State Chamber..............................................    31
    Mr. Bill Ingersoll, Owner, Bikes, Trikes, and Quads, 
      Sloansville, NY............................................    36
    Ms. Afton Stout, Owner, My Dinosaur Dreams, State Center, IA.    40
    Mr. Jake Ward, President, Connected Commerce Council, 
      Washington, DC.............................................    43
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Connected Commerce Council SME Research......................    47

 
         FLIPPING THE SWITCH ON RURAL DIGITAL ENTREPRENEURSHIP

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:33 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, 
Golden, Schneider, Delgado, Houlahan, Craig, Chabot, Balderson, 
Hern, Hagedorn, Stauber, Burchett, Spano and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The committee will come 
to order.
    I thank everyone for joining us this morning, and I want to 
especially thank the witnesses for being here today.
    In today's economy, there is no doubt that digital 
technology has revolutionized the way entrepreneurs are looking 
to build, grow, and manage a successful business.
    Whether it is utilizing the latest app to advertise a 
product or engaging in the sharing economy by renting out a 
work space online, these type of inventions have been a 
catalyst for small businesses in just the last decade. In fact, 
three out of four American small businesses utilize tech 
platforms for sales, according to industry estimates. And, an 
even higher amount use at least one digital platform to display 
products and services, as well as advertise.
    By harnessing the opportunities of digital platforms and 
marketplaces, many small businesses and entrepreneurs are 
experiencing growth and success. Look no further than the small 
businesses testifying here today.
    It is also no secret that some of our country's most 
innovative ideas and successful small businesses are hatched 
within our rural communities. Yet, in many rural areas 
throughout this nation, the absence of reliable broadband 
threatens to hold back an entire subset of entrepreneurs.
    Approximately 14 million rural Americans and 1.2 million 
Americans living on Tribal lands still lack mobile LTE 
broadband at speeds of 10 megabytes per second. Put another 
way, more than 30 percent of rural residents lack broadband, 
compared to just 2 percent of urban residents. Among rural 
tribal residents, the share increases to 66 percent.
    The stories behind these numbers are of real entrepreneurs 
whose ability to secure affordable capital, expand into new 
markets, and hire workers, are all jeopardized without reliable 
internet access.
    So, it is important that any technological leap to 5G or 
future investment in infrastructure from Congress secures 
access to reliable broadband, no matter where in the U.S. the 
next small business finds itself.
    We cannot, however, encourage small businesses to adopt 
today's digital platforms without simultaneously ensuring they 
have the training and resources necessary to protect themselves 
against cyberattacks and bad actors.
    Therefore, today's conversation about expanding digital 
opportunities for rural entrepreneurs must also consider how we 
as members of this committee, can work to make it easier and 
more affordable for the budding small business to not only 
utilize digital technology, but be smart about not exposing 
themselves to greater risks.
    Government policies should also keep pace with 
technological innovations and empower rural entrepreneurships 
to look beyond geographic boundaries. In order to access new 
markets and customers all over the world, small businesses need 
policies that encourage digital growth, not hinder it.
    Finding the right balance to expand the reach and 
capabilities of rural entrepreneurs while also keeping them 
safe is a priority for this committee.
    It is my hope that today's discussion can help identify 
ways to support and expand the number of businesses utilizing 
digital platforms, particularly for those that are in more 
rural communities.
    With that, I thank each of the witnesses for joining us 
today and I look forward to your testimony.
    I now would like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman, and good morning 
to all those that are here today. I want to thank the witnesses 
especially for taking the time out of their busy work day to be 
here with us.
    And before I get into my truly stimulating and emotional 
and inspiring opening statement on digital opportunities for 
rural entrepreneurs, I would like to introduce, we have got 
three students here shadowing me today, so if you three could 
stand up. These three are from The Ohio State University. So we 
appreciate them being here.
    So they have seen us discuss NATO in Foreign Affairs. They 
have seen us discuss VAWA, The Violence Against Women Act, and 
amendments on transgender issues and a whole range of issues, 
and so we are going to try to make the Small Business Committee 
just as interesting here today, and I am sure we will succeed. 
So I will get right into it. Here is my stimulating speech.
    The use of digital technologies, including access to high 
speed internet and online tools is gaining popularity in rural 
areas because of the opportunities they create for small 
businesses throughout the countryside. Increasingly, digital 
tools and platforms form the foundation of success for the 
modern day American small business. Small businesses that use 
digital tools are more nimble, resourceful, and able to reach 
more potential customers.
    It is no surprise that digitally-powered businesses earn 
twice the revenue and are three times more likely to create 
jobs. And that is, after all, what this Committee is about; 
trying to create more jobs for more Americans.
    Unfortunately, there continues to be a lack of data about 
the rural aspect of the small business economy. What we do 
know, however, is that 27 percent of rural residents still do 
not have access to a high-speed internet connection. In 
addition to this lack of infrastructure, rural areas lack 
skilled IT professionals to assist in the adoption of more 
advanced digital technology. That is why this new report from 
the U.S. Chamber of Commerce is so timely and important. The 
Chamber surveyed over 5,000 small business owners across rural 
American about the economic impact to the online tools and 
technology on their businesses. Among other findings they 
discovered that while the ecommerce ecosystem boosts sales and 
reduces costs for rural small companies, such firms are 
adopting digital tools at a pace much slower than their urban 
counterparts.
    The study also found that greater use of digital tools and 
technology could increase greater economic potential for rural 
small businesses across the country. With better access to 
digital tools and technology, the Chamber's analysis shows 
potential economic benefits in rural areas that is far 
reaching. For example, the study projects that gross sales for 
rural small firms could increase by more than 20 percent over 
the next 3 years, the equivalent of $84.5 billion per year. 
Such increases would also lead to an additional $46.9 billion 
to the U.S. gross domestic product and create over 360,000, so 
about a third of a million jobs.
    I am looking forward to today's discussion and a further 
examination of these numbers and hearing suggestions about how 
we can increase the utilization of digital tools and 
technologies. The goal, of course, is to unlock the vast 
potential that is out there in the rural small businesses. And 
again, Ms. Velazquez, thank you very much for holding this 
hearing. I know that was pretty stimulating, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And if committee members have an opening statement we would 
ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and every member get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light means that there is 1 minute remaining. The red light 
comes on when you are out of time, and I will ask that you 
please try to stay within the timeframe.
    I would now like to yield to Mr. Golden from Maine to 
introduce our first witness.
    Mr. GOLDEN. Thank you, Madam Chair.
    I would like to introduce, I am very honored and happy to 
introduce first Mr. Dana F. Connors. Mr. Connors is the 
president of the Maine State Chamber of Commerce, where he 
oversees a broad range of activities including advocacy 
efforts, economic and workforce development initiatives in the 
State of Maine, and a wide variety of member services for the 
business community. He is a Maine native who received a 
bachelor's degree in public management from the University of 
Maine in 1965. And I would just say as someone who worked for 4 
years in the Main state legislature, I worked closely with Mr. 
Connors and his business advocacy inside the statehouse. He is 
a class act. In an age that can sometimes be somewhat divisive 
in our political world, this is exactly the kind of guy that 
you want representing businesses before state legislatures and 
Congress. He knows how to keep the focus on the business, on 
the community, and in pulling people together. So just want to 
thank you for that. You have always been someone that I look up 
to very much, so thank you, sir. I look forward to hearing your 
testimony.
    Chairwoman VELAZQUEZ. I now recognize Mr. Delgado from New 
York to introduce our second witness.
    Mr. DELGADO. Thank you, Madam Chair. It is also my honor to 
introduce our second witness, Mr. Bill Ingersoll. He was raised 
in Sloansville in Schoharie County, which I just had a town 
hall in this weekend. He grew up racing motocross. As the son 
of a single mother, money was always tight. This led Bill and 
his grandfather and business partner to begin buying and 
selling ATVs and ATV parts to supplement the cost of racing. In 
2008, Bill tragically suffered a severe spinal cord injury 
which confined him to a wheelchair. The accident marked a 
turning point in his life, catalyzing his eBay career and 
leading him to start an ecommerce business. Since 2010, Bill 
has been using his passion for motocross to sell ATV parts in 
his eBay store, Bikes, Trikes, and Quads. I look forward to 
hearing from Bill today. We had a greater conversation earlier 
in my office and he has a lot of wonderful insights as to what 
it means to be a business owner in a rural community like 
Schoharie and how critically important it is for us to focus on 
digital needs, particularly rural broadband. So thank you. I 
appreciate the time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Delgado.
    Now, I recognize Ms. Finkenauer from Iowa to introduce our 
next witness.
    Ms. FINKENAUER. Thank you, Madam Chair.
    I am very excited to have an Iowan here today and introduce 
Ms. Stout. Ms. Stout makes paper flowers from her home in State 
Center, Iowa. She started her Etsy shop back in 2010 and began 
gaining traction a few years later after her son was born. 
Living with fibromyalgia, her creative business allows her to 
do her work on her own schedule, which has benefitted her 
family greatly. Ms. Stout sells through multiple platforms, as 
well as through her own website. She manages every part of her 
shop, and her husband helps out occasionally. She has many 
international sales and hopes to be able to hire an employee 
soon to give back to her community. We are very happy to have 
you here and really look forward to your testimony today. Thank 
you, Ms. Stout.
    And I yield back.
    Chairwoman VELAZQUEZ. Thank you.
    Now I would like to yield to the Ranking Member, Mr. 
Chabot.
    Mr. CHABOT. Thank you, Madam Chair.
    Today's final witness is Mr. Jake Ward, president of the 
Connected Commerce Council, or 3C, a membership organization 
for small businesses powered by digital. 3C works to provide 
small businesses with access to the market's most effective 
digital tools available, provides coaching to optimize growth 
and efficiency, and works to cultivate a policy environment 
that considers and respects the interests of small business. 
Jake is the cofounder and former CEO of Application Developers 
Alliance and Forward Strategies. We thank you for joining us 
here today and look forward to your testimony.
    And I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot.
    Mr. Connors, you are recognized for 5 minutes.

  STATEMENTS OF DANA F. CONNORS, PRESIDENT & CEO, MAINE STATE 
CHAMBER OF COMMERCE; BILL INGERSOLL, OWNER, BIKES, TRIKES, AND 
   QUADS; AFTON STOUT, OWNER, MY DINOSAUR DREAMS; JAKE WARD, 
             PRESIDENT, CONNECTED COMMERCE COUNCIL

                  STATEMENT OF DANA F. CONNORS

    Mr. CONNORS. Thank you. Chairwoman Velazquez, Ranking 
Member Chabot, and distinguished members of the Small Business 
Committee.
    My name is Dana Connors. I am president of the Maine State 
Chamber of Commerce, and I thank you, Madam Chair, for the 
opportunity to appear before you today and for the privilege of 
doing so. This is an extremely important issue for the state of 
Maine, which is my perspective to this report, because it does 
show what we anecdotally have become aware of but puts proof 
behind the actual issue. And we are grateful for that 
opportunity.
    And while I am at it, I want to be sure to express my 
appreciation to the Chamber, to NDP Analytics, as well as 
Amazon and the team that came together to put this report 
before you and to show the importance, the impact, and frankly, 
the necessity that it creates for states like Maine that is 
predominantly rural and small business. So I thank them for 
that.
    My job is as the good congressman from Maine, which we miss 
in Maine and we are grateful that you are representing us in 
Washington, we do miss you in our state capital, you, too, are 
a class act, may I say. We, as you said, work hard to promote a 
positive business environment in Maine, and in doing that we 
represent a network of over 5,000 businesses of all sizes, 
representing all sectors, and from all regions of the state. We 
advocate on their behalf and we try to provide those types of 
programs and partnerships that allow them to do what they do 
best, which is to run their business and be successful at it.
    You probably are aware somewhat of Maine because many of 
you perhaps have vacationed there because we have 38 million to 
40 million a year that come to our beautiful state, and that is 
probably the reason our license plates bear the name `` 
Vacationland.'' But I want you also to know that we are rich in 
history. We have vibrant communities and we are unparalleled in 
work ethic. And when people ask me about Maine and describe in 
one word I say it is quality. Quality of our people, our place, 
as well as our products. Our state is a fabulous place to 
vacation. It is also a fabulous place to live and work.
    You also need to know that our population is about 
1,350,000 spread over 33,000 squares miles. And by the way, 
that is the size of the rest of New England. You also need to 
know that our population, 60 percent lives in the rural areas. 
That makes us the most rural state in the country. But when you 
look at the size of our business, you also need to take into 
account that the Federal level describes small business as 
under 500. Seventy-five percent of our businesses are under 10. 
And when you consider we have 35,000 businesses, only 64 exceed 
that 500. So we are the subject in so many ways of this report. 
And that is why this report is so important to us because it 
opens the door to opportunity, it provides a direction, and it 
creates a necessity for us to move on it.
    I would like to share with you that we have made progress. 
We are rural, we are small, but this state has been, as you 
have implied in your opening comments, moving in this 
direction. There is a lot left to do but we are moving in the 
right direction.
    I want to give you a couple examples to bear this out. The 
first is a woman who left New York City to come to Maine. She 
did not go to Portland where most of our population is. It has 
a great reputation as a foodie city. She chose our least 
populated county in the state, Washington County. When she came 
there about 10 to 14 years ago, there was no high-speed 
broadband internet connection. But she made it her priority to 
do just that. And today, because of that commitment in that 
rural, most rural part of our state, I will give you two 
examples to bear out. Cranberry Isle is a group of islands. 
There are 141 people that live there. It is also now the 
residence of a renowned artist who came there for vacation but 
loved it like so many people do and wanted to move there. This 
high-speed internet connection now provides him to sell his art 
throughout the world and to live and work on Cranberry Isle.
    There is another astrophysicist who lives on Roque Bluffs, 
another very small community, probably 250 at max. This aero 
physicist works with NASA, has connections to the University of 
Phoenix, established it as vacation, but he, too, is there.
    I can see I am running out of time and I barely got 
started. I am hopeful that during the questions that it will 
bear out how important this is, and the report builds the case 
that in Maine it very certainly applies. And I hope the 
questions will give me the opportunity to expand as I would 
like to do. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Connors.
    Mr. Ingersoll, you are now recognized for 5 minutes.

                  STATEMENT OF BILL INGERSOLL

    Mr. INGERSOLL. Chairwoman Velazquez, Ranking Member Chabot, 
members of the Committee, thank you for inviting me to 
participate in this important hearing on how digital tools 
improve rural entrepreneurship.
    My name is Bill Ingersoll. I own Bikes, Trikes, and Quads, 
a small business I started in rural Sloansville, New York. We 
sell motocross and ATV equipment on eBay to customers around 
the U.S. and increasingly around the world. I appreciate the 
opportunity to share my experience son some of the tools that 
make running my eBay business possible in rural America, 
including rural broadband access, universal and reliable Postal 
Service, and breaking down barriers through global trade.
    I grew up racing motocross in upstate New York. My entire 
life changed when I was injured in a motocross crash and left 
paralyzed in 2008. After the accident, I could no longer work 
construction or do many of the other things I had done 
previously, but I was determined to move forward with my life. 
My grandfather and I had always fixed up old ATVs as a hobby, 
so I was looking for a way to turn that hobby into a business. 
Not long after, I was trying to find some parts to modify an 
ATV we had so that I could get around our property more easily. 
I ended up tracking them down on eBay. The process was so easy 
and convenient for me as a buyer that I began to look into 
selling parts on eBay. We already had a large stock of parts 
from ATVs and dirt bikes from years of racing so we decided to 
give it a try. We opened our eBay store in 2010 and have been 
selling since. I now have three employees and run my business 
out of a warehouse on my property.
    I often look back today, 10 years later, and wonder what 
life might look like now without eBay and I really do not know. 
Being 23 years old with minimal education in a poor rural area 
never fostered good odds for an able-bodied person, let alone 
someone who was now disabled. EBay and being able to run a 
business online has given me a life that I may have not 
otherwise enjoyed.
    Living in rural upstate New York, I would not be able to 
use eBay if I did not have access to high-speed internet and 
affordable broadband. Unfortunately, broadband reliance and 
even phone connectivity continue to be constant issues for our 
company. Rural broadband is essential to ensuring that rural 
small business owners and entrepreneurs can take advantage of 
the latest technologies and reach customers around the world no 
matter where they live in our country.
    There used to be a few ATV dealers in my area who sold 
locally but were not online. Unfortunately, none of them are in 
business anymore. We need real investment in improving and 
expanding our rural communications infrastructure so that 
businesses like mine can take advantage of innovative tools and 
marketplaces like eBay. Even though my store is online, I still 
have to actually ship products to customers around the country 
and around the globe. I rely heavily on the U.S. Postal Service 
to reach my customers. Over 80 percent of our shipments go 
through USPS. I understand there are proposals that would make 
my package delivery to rural parts of the country like my 
hometown nonessential. I cannot imagine how anyone could 
consider small businesses like mine not essential by cutting 
access to Postal Services or raising prices for rural package 
delivery would be disastrous for rural small businesses. Most 
people do not know that private shippers charge surcharges to 
deliver to rural areas. If I had to rely only on private 
shippers or if package services went up dramatically, my costs 
would go through the roof. Like broadband, the U.S. Postal 
Service is essential for all Americans no matter where they 
live, and without it, rural small businesses will have a harder 
time competing with giant ecommerce companies that have their 
own warehouses and logistics networks. Small ecommerce 
businesses depend on reliable, affordable, and universal Postal 
Service.
    On top of selling to our customers in the U.S., selling 
globally has been key to our success. We have shipped thousands 
of orders globally to some countries where ATVs are their prime 
mode of transportation. Selling worldwide allowed us to reach 
customers and realize new opportunities that we would have 
otherwise not considered. These opportunities are a direct 
result of conducting business online and never would have 
existed before the internet. Small online businesses like mine 
across the U.S. in rural and urban areas need trade policies 
that cut red tape for low value shipments by supporting higher 
de minimis thresholds throughout the world. That way, small 
businesses like mine can truly take advantage of one of the 
best things the internet has to offer, hundreds of millions of 
buyers all over the world.
    On behalf of rural businesses across the country, thank you 
again for holding this important hearing. I look forward to 
your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Ingersoll.
    And now, Ms. Stout, you are recognized for 5 minutes.

                    STATEMENT OF AFTON STOUT

    Ms. STOUT. Good morning. My name is Afton Stout and I am a 
creative entrepreneur from rural Iowa. Before I begin, I want 
to thank everybody who has been a part of me being here today, 
my mom and my brother, and of course, my husband, Brian, and my 
3-year-old son, Rhys. I also want to send a thank you to my 
dad, who passed away in 2006 because I know he would be super 
proud of me for being here today. Thank you, Chairwoman 
Velazquez, and Ranking Member Chabot, and members of the 
Committee for inviting me to speak with you today about my 
creative business.
    I was born and raised in eastern Montana, in an even more 
isolated area than I live in now. My dad was diagnosed with 
systemic lupus the year that I was born, and I believe that my 
family's struggles with poverty have been a huge part of who I 
am today. Growing up with limited means instilled a sense of 
restraint when it comes to money and spending it wisely.
    I have always been motivated by creating and selling, 
starting out in small craft shows in my hometown of Glendive, 
Montana. I can remember buying items from Etsy when I got my 
first bank card, which was pretty exciting. I had always 
planned to start a shop, despite being both intimidated and 
inspired by the success of others. I assumed that living in a 
small town would be a hardship for my creative ventures that I 
would have to struggle to overcome. However, I am certainly not 
alone in that space, as 27 percent of Etsy sellers are from 
rural areas like mine. After graduating from the local college, 
I worked two jobs and crafted on the side, selling through 
local online groups to keep my mother and me afloat after my 
Dad's life insurance ran out.
    In 2013, my Mom remarried and I was able to kind of rethink 
my life and decide what I wanted to do. My stepdad was a huge 
help in getting me settled in Iowa, which I am super grateful 
for. That same year, I met my husband and went on to marry him 
in 2014. And for our wedding I handmade all of the flowers from 
paper, which was kind of the spark that sent me on to my 
entrepreneurial journey. For the first year of our marriage, I 
made a few pieces of jewelry, some of which I did list on Etsy, 
and after my son was born in 2015, I decided that I would stay 
home with him and see if I could find a few more people who 
were interested in handmade flowers for their weddings or 
events. And from there, things just kind of took off.
    Thanks to the internet, I am one of 2.1 million sellers on 
Etsy, many of whom like me are able to run our creative 
businesses from home, despite living in a rural area. This has 
improved my quality of life immensely. I was diagnosed with 
fibromyalgia in 2012, an illness that I have been fighting 
since middle school, which ultimately led to me dropping out of 
high school. I did not allow it to hold me back. I took my GED 
a few months later and went to a local college to get my 
associate's degree, and like many creative entrepreneurs, I did 
not set out to become a full-time microbusiness owner, but I am 
very, very happy that I am able to do this.
    When I first started out, I started advertising on Facebook 
and listed custom-order handmade flowers on Etsy. My first year 
I had about $37,000 in sales, which I thought was absolutely 
amazing. At the end of 2016, I started working with wooden 
flowers and the business just kind of exploded from there. 
After posting some of those on Etsy, my sales nearly tripled.
    Starting out, most of my sales were online with roughly 10 
percent being local, in-person sales. Since then I have had 
customers from all over the world, including France and 
Germany. With a platform like Etsy, I am able to ship beautiful 
flowers made in Iowa to international buyers that truly value 
my work.
    Today, the bulk of my business is wedding related. I custom 
dye and arrange wooden flowers to match wedding themes and 
other events. I am able to work with very, very many lovely 
people that I would never know or even reach without the 
internet or online platforms like Etsy. I am making a push for 
a bigger local presence, and even Etsy helps with that by 
showing search results with local businesses closer to the top 
of the search. I work 12-hour days during wedding season, but I 
love what I do and I get to work with people who are absolutely 
amazing.
    I am proud to say that I am projected to be 80 percent 
above where I was last year in views and sales, and I may have 
to hire my husband to help me run things once my 3-year-old 
starts preschool this fall. In 2016, my husband started staying 
home full time with our toddler so that I could work full time 
on my creative business. He has trauma-induced arthritis in 
both of his feet from an injury back in 2010, so being able to 
stay home has helped him out incredibly and vastly improved the 
quality of life of all of us. Like 97 percent of Etsy sellers, 
I run my shop from my home. In fact, we just finished building 
a studio onto our house to increase productivity.
    My creative business allows me to pursue my creative 
passions in the comfort of my home, surrounded by my family. 
And while my story is unique, this pathway to rural 
entrepreneurship is not. There are over 2.1 million Etsy 
sellers across the globe, and together, we sold $3.9 billion 
goods in 2018.
    And I am about to run out of time, so I would appreciate 
any questions to follow up at the end of this. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Ms. Stout.
    And now, Mr. Ward, you are recognized for 5 minutes.

                     STATEMENT OF JAKE WARD

    Mr. WARD. Good morning.
    Madam Chairwoman, Ranking Member Chabot, on behalf of 
digitally-empowered small businesses across the country, thank 
you for holding this important hearing.
    I am coincidentally also a Maine native, and I want to 
commend you for pulling together, though inadvertently, the 
most Maine-centric panel in the history of Congress. It is not 
often that small-town America gets a seat at the table, let 
alone two of them. I am grateful for the opportunity.
    My hometown of Greenville, Maine, is small. It is fewer 
than 1,500 residents small. It is everybody knows everybody 
else small. There are no chain stores or big companies. In my 
hometown, every business is a small business. And those 
businesses are the foundation of the town, the community, and 
the local economy. That is the rule in rural America, not the 
exception.
    It is true that much has changed in rural America. Small 
businesses are as important today as they have ever been. The 
digital age has brought its share of challenges, but also 
created many opportunities. Digital resources empower local 
businesses to rise above and grow beyond their geographic 
limitations and find customers around the world, where before 
the next county would have seemed a world away.
    I am here today to offer the support and help of the 
Connected Commerce Council as this Committee works to unlock 
the potential of America's small businesses. As the son of a 
small business owner in a rural total in a rural state, it is 
my hope that 3C can provide resources, education, and access 
that helps rural small businesses realize their potential. It 
is also my intention to work with policymakers anywhere, 
including and especially members of this Committee to 
accomplish our shared goal.
    As we have already heard from this panel today, the 
challenge of every small business is unique but their stories 
are universal. Unleashing the potential of rural America 
requires small businesses have access to four things--capital, 
affordable broadband services, talent, and finally access to 
affordable, secure, and scalable digital tools. It also 
requires that we understand that the digital economy is a 
different type of interconnected and interdependent economy 
where the investment of global platforms have direct, tangible 
local benefits that can be measured in new employees and 
increased financial security.
    In Congress and in many state capitals, debates on data 
privacy, cybersecurity, and competition policy are underway 
that will dramatically affect small businesses' ability to 
succeed or even survive. If our data privacy laws focus only on 
consumer protection and tech giants, they will fail to 
recognize and preserve the importance of data and analytics 
that enable small businesses to compete with larger, urban-
based companies on quality and price, rather than proximity and 
size.
    Cybersecurity policy that focuses on only the biggest 
breaches and the gravest risks will leave small businesses in 
the crosshairs of ransomware predators and hackers.
    Competition regulators who focus only on company size will 
miss the benefits that digital platforms and marketplaces 
provide to 3C members and digitally-empowered small business 
nationwide. Frankly, I am concerned we may lose the forest 
through the trees and focus too much on the largest, most 
prominent companies to the detriment of small businesses that 
will ultimately pay the price if business models are 
dramatically changed, costly regulation is enacted, or access 
to essential tools is limited.
    The reality of the digital economy for 3C members and 
nearly 30 million small businesses like them is that they stand 
on the shoulders of large companies to reach otherwise 
unobtainable heights. Too often opportunity driven by 
innovation is assumed rather than promoted and protected. Too 
often we talk about small businesses rather than with small 
businesses. I know under the leadership of this Committee that 
will change.
    If the Committee wishes to unless the potential of American 
small businesses, you must make sure that this Congress and 
state legislators do not limit access to the tools they need. 
We must take great care to ensure that policies focused on the 
largest companies do not inadvertently undermine small 
businesses' opportunities. Your contribution to unleashing the 
potential of all small businesses, including those in rural 
America, can be your vigilant defense of small businesses' 
access to the technology they need to succeed.
    Thank you, again, for your attention to this important 
subject and for security a seat at the table for America's 
small businesses. I look forward to your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Ward, and all the 
members, all the witnesses for sharing your stories and showing 
us the challenges and the great potential that exists in 
promoting economic opportunities in rural America. And that is 
our responsibility. So I am very grateful for your testimony.
    Mr. Connors, can you elaborate on the economic cost to 
rural communities of not having high-quality, reliable 
broadband?
    Mr. CONNORS. Certainly, Madam Chair. I would not express 
that in terms of dollars----
    Chairwoman VELAZQUEZ. Is your mic on?
    Mr. CONNORS. Thank you, Madam Chair. I would be pleased to 
give that a response, not so much on the specificity of the 
actual numbers of dollars. I mean, the report bears out very 
effectively that with adequate access, $84 billion, 360,000 new 
jobs is pretty significant, which represents a 20 percent 
increase in business, that would certainly apply to us. We have 
found that in our state advancements have been made but there 
still remain 83,000 that do not have access. And that is based 
upon the FCC standard of 25/3, at which there may be even more. 
And I think what we are finding is that in our state, the 
opportunities to address the two most important issues in our 
state, and this is borne out by a report, an initiative that 
was based upon a collaborative between three organizations, one 
of which was a research organization, that 8 years ago we came 
together and have continued that initiative. But 8 years ago 
when the business community was surveyed and a poll was taken, 
the response was--and the whole initiative called Making Maine 
Work was to actually provide for the administration the 
priorities. At that time we were in a recession, so you can 
imagine it was all about tax incentive, those types of issues. 
Today, the issues that are most important that will serve our 
state and particularly the rural community is workforce, skill 
and education, and broadband. They are our top two issues. The 
business community has adopted and so has----
    Chairwoman VELAZQUEZ. Mr. Connors, I would like to hear 
also from Ms. Stout and Mr. Ingersoll.
    Mr. CONNORS. Yep. I am sorry.
    Chairwoman VELAZQUEZ. But we will have a second round.
    Mr. CONNORS. Thank you.
    Chairwoman VELAZQUEZ. And I just want to discuss the 
workforce IT skills.
    Ms. Stout and Mr. Ingersoll, can you speak to how broadband 
limitations in rural communities have either stifled your 
ability or your community's ability to grow and adapt to 
digital commerce?
    Mr. INGERSOLL. Even though that we have access in my area 
to high-speed internet, the speeds are never accurate. They 
claim a 7 megabyte service. We will average 4 to 5 megabytes. 
But the other side to that is there are periods where I am 
getting 1 megabyte and it is very difficult for my business to 
operate like that. To call and set up a service call or 
something to that degree, to get a repair person out, they will 
give me a 2 week wait time to get the internet looked at. And 
during that period I have to do things like, you know, I can 
tether off of my cellphone occasionally. Cell service has 
improved in my area to the point where that is viable but I am 
already paying for a service that is not performing and it has 
got a direct cost to my business.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Stout?
    Ms. STOUT. Pretty much the same things that he touched on 
are what I deal with also. We do not have a very reliable 
service, and we do not have very many options where I live. So 
you just kind of pick the best one that you can get and go off 
of it. I end up using my cellphone also to maintain my business 
contacts because I have to answer messages pretty frequently 
because I work with brides who worry a lot, so I always need to 
be in contact with people. And that is my main concern.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Ingersoll and Ms. Stout, have you had any type of 
interaction with any of the programs of the Small Business 
Administration, whether helping you put together a business 
plan or helping you access lending?
    Mr. INGERSOLL. I have had no contact.
    Chairwoman VELAZQUEZ. Yes, Ms. Stout?
    Ms. STOUT. I also have had no contact with them either.
    Chairwoman VELAZQUEZ. Okay, thanks.
    And Ms. Stout, as an entrepreneur--well, my time is almost 
up so I will now recognize Mr. Balderson, Ranking Member of the 
Subcommittee on Innovation and Workforce Development, for 5 
minutes.
    Mr. BALDERSON. Thank you, Madam Chair. But as the 
Chairwoman, you can keep on going if you want to, so please do 
not let me take that away from you.
    Thank you, panel, for being here.
    Mr. Ingersoll, this will probably be the first time this 
has ever happened. I am sorry what happened to you. I raced 
motocross. Just got done with the GNCC series. Then I decided 
to run for Congress so my motorcycling racing days, both KTMs 
450 and 200 have been sold and gone. But like you, the Madam 
Chair talked about one of the questions I had for you.
    Do you remember flex bars?
    Mr. INGERSOLL. Mm-hmm.
    Mr. BALDERSON. I was the first guy in the country to start 
selling those online and going all over and that was back in 
2005-2006 range. And I had a really challenging time. I live in 
Appalachia, which is in rural Ohio is where I am actually from. 
But I was going to ask you, you know, you had no hard time 
getting access to broadband of any sort, or Ms. Stout? Because 
I am shocked by that.
    Mr. INGERSOLL. At the time of my injury was the first time 
that we had access to broadband internet. That was 2008. You 
know, it has improved over time to where it is more function 
now, but I would say from 2008 until about 2015, it was very 
difficult. It had a direct impact to my business because there 
were days where we could not process orders because the 
internet was down and I had not found workarounds for that.
    Mr. BALDERSON. Okay. And you talked in your opening 
statement about your United States Postal Service. And I 
totally agree with you. Folks do not know about the private 
carriers and what we had to do with that, and I am sure most of 
you do but I attest to that also. They were very important to 
me.
    Ms. Stout, this question is for you. I mean, you had no 
inconsistency or lack of broadband when you first started out, 
or any issues at all?
    Ms. STOUT. I do not really remember having a lot of issues 
getting internet. It is mostly the reliability that is an 
issue. Like I said, ours cuts out quite frequently, kind of on 
a schedule almost. Like they almost plan it. So I kind of work 
around that with my cellphone. But yeah, it was pretty easy to 
get it. I am fairly new though so, I mean, 2015-ish, so.
    Mr. BALDERSON. Okay. Madam Chair, I yield back the rest of 
my time. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the gentlelady from Iowa, Ms. 
Finkenauer, Chairwoman of the Subcommittee on Rural 
Development, Agricultural Trade, and Entrepreneurship.
    Ms. FINKENAUER. Thank you, Madam Chair.
    And this question is for Ms. Stout. Again, thank you so 
much for being here today. Really happy to have you. And my 
short time in Congress so far, just the last couple of months, 
this Committee and myself have really been focused on reducing 
barriers for entrepreneurs and looking at ways to ensure that 
we have an environment where small businesses, especially in 
rural areas, can create good paying jobs and also take care of 
their families. One of the things I want to do is plan a 
listening session within the district and talk to young folks 
all across the district, figuring out ways that we can get, 
again, more entrepreneurs. Make sure we are cutting down on 
those barriers so that they are able to have what they need to 
start and create good paying jobs so that we can keep Iowans in 
Iowa and also bring some back home, which is incredibly 
important to me as well.
    One of the things though that I have already started to 
hear when it comes to barriers for a young person to even start 
a business and want to become an entrepreneur has to do with 
some things like paid family leave and those issues where it is 
incredibly important right now. You know, I know there are a 
lot of ideas out there, and I will not take this Committee to 
debate those, but I will say from my understanding they are 
incredibly important from folks in Iowa and across the country, 
and we need to make sure that our entrepreneurs are able to 
have leave policies to be able to, again, start their business, 
but also take care of their family.
    And one of the things I also wanted to touch on, too, I 
understand there are other barriers we look at with the 
emergence of the digital economy that, you know, pros and cons 
that go along with it with our cities and towns, also other 
things, you know, health care, retirement benefits, student 
loans, and broadband, for example, that folks are dealing with. 
What are some of the barriers very specifically for you, Afton, 
to becoming an entrepreneur and then what would you like to see 
happen to encourage more young people to get involved and also 
be able to take that next step to be an entrepreneur 
themselves?
    Ms. STOUT. Okay. That is a good question. A long question 
and a lot of answers.
    I would say first off my biggest issue so far has been 
health care, which is very important for both my husband and I, 
because we both have health issues. Luckily, we were on 
government assistance previously before business started doing 
so well. My husband was a barista and I was a pharmacy 
technician and I quit to stay home with my son. But looking at 
the healthcare marketplace was very overwhelming. I know there 
is a lot of work that needs to be done with that. It was not 
very realistic the quotes that I was getting for what I would 
need to pay out of pocket to get insurance for my family. I did 
look into other options outside of the marketplace then because 
it just was far too expensive.
    Another issue that has come up has been taxes to different 
jurisdictions in different areas where now I know that Etsy 
collects state sales tax for Iowa, so I do not have to worry 
about that, which is very helpful. If we were to have to 
collect, I know there are some bills that may require after a 
certain threshold that they collect, we collect sales tax for 
those outside states that we ship to. I think it is $100,000 or 
so. But if we had to do that, that would make it very, very 
hard for us to keep track of as a small business since I do all 
of my own paperwork and everything. Next year I am actually 
paying somebody to do my taxes for the first time. So exciting. 
But yeah, I do all my own paperwork otherwise. So if I had to 
keep track of taxes, otherwise I would definitely have to hire 
somebody else, which is also another set of paperwork and 
everything. So those are the two main things.
    Things that would help, of course, are the internet issue, 
making sure that we have reliable internet. Health care. Making 
sure that health care is more affordable. And paid leave. 
Luckily, I am in a very lucky situation where my husband has 
gotten to stay home and take care of my son because otherwise, 
I could not do what I was doing or what I am doing. So those 
things are very important to me, and I am sure to others. Thank 
you.
    Ms. FINKENAUER. Well, I look forward to working on them. 
And I look forward to having this conversation continuing. But 
I know my time is about to expire and again, thank you so much, 
all of you, for being here today, truly.
    And with that, I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now we recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chair. And I want to apologize 
for having to leave. We are marking up the VAWA, the Violence 
Against Women Act in Judiciary and I had an amendment that was 
being called up so I had to go over and take care of that. So I 
apologize.
    Mr. Ward, let me start with you if I can. You mentioned the 
importance of cybersecurity for small firs, at least in your 
written testimony. I assume you probably talked about it in 
your oral testimony as well. And I really could not agree more. 
Would a nationwide network of counselors that are trained in 
cybersecurity measures help small firms prepare for 
cyberattacks? And additionally, would it be beneficial to offer 
some sort of safe harbor to small firms that have been 
victimized by a cyberattack so they are free to share that 
information with the Federal Government to help strengthen the 
Nation's entire cybersecurity network?
    Mr. WARD. The short answer, sir, is yes, but this being 
Congress I will give you the longer one.
    The cyberattacks for small businesses are extinction-level 
events. They will put companies out of business. The burden of 
reporting is complex. Often, too complex for very small 
businesses, for microbusinesses as it currently stands. I think 
a national network is a really good idea. I think that safe 
harbor is an essential idea. I want to congratulate you and 
Madam Chairwoman for the introduction of 1648 and 1649, two 
bills that are bipartisan in this environment is remarkable, 
but also, they really go to the heart of the issue. They are 
simple solutions to an otherwise complex burden. 3C is fully 
behind both of those. In fact, we would be more than happy to 
be part of the solution for 1649 and the network of training 
that you have proposed.
    Mr. CHABOT. Thank you. Well, in the spirit of 
bipartisanship, the Chairwoman and I heard testimony about you 
just mentioned it can be an existential event to a small 
business if they have a cyberattack. Many literally go out of 
business as a result of that. They go under. And so this 
legislation should really help. And it is H.R. 1648 and H.R. 
1649 as you mentioned, and Ms. Velazquez and I introduced it 
together. So hopefully, we are going to make progress on that 
in a bipartisan manner and maybe actually be able to help the 
small business community tremendously.
    Mr. WARD. Wonderful. We would love to help.
    Mr. CHABOT. Thank you.
    Mr. WARD. Thank you.
    Mr. CHABOT. Mr. Ingersoll, I will go to you next if I 
could.
    Could you tell us about how your business kind of grew over 
time? Was it to areas in New York, for example, and then maybe 
across the country and then followed by, I guess, exporting 
around the globe, I guess through eBay? Or did it more or less 
all come at once? Or how did it unfold in your particular 
instance?
    Mr. INGERSOLL. Initially, I mean, being online you are 
going to get a variety of customers to begin with. Certain 
areas of the southwest, you know, and the southeast, they are 
the primary areas that our sales come in from. The traffic that 
eBay brings to my business and the visibility worldwide, it 
allows me a lot of opportunities in these different markets 
that if I was stuck to just my state or my county or my town, 
those opportunities would not be there. So I was able to grow 
my business completely off of the volume of sales I was getting 
from eBay.
    Mr. CHABOT. Very good. Thank you.
    Ms. Stout, you mentioned that the minute you got on Etsy 
your whole world changed. So what is next? Small businesses are 
always at the forefront of what is next because they have to be 
in order to compete with the larger companies that you compete 
all the time with. Are there new technologies out there that 
you see on the horizon or that you are already anticipating 
that will allow you to continue to grow your business in the 
future?
    Ms. STOUT. Honestly, I am at a point in my business where I 
do not want to grow any bigger.
    Mr. CHABOT. Okay.
    Ms. STOUT. Because I would have to hire help, and I do 
not--I am happy being able to support my family and give back 
to my community where I am at.
    As far as new technology, I am not really sure. I have been 
sticking with Etsy and Facebook pretty much and they have 
helped me out a lot. They reach a very, very large audience of 
people.
    Mr. CHABOT. If it ain't broke, do not fix it; right?
    Ms. STOUT. Right? Yeah. So I am happy where I am.
    Mr. CHABOT. Excellent.
    Ms. STOUT. So I have not really looked.
    Mr. CHABOT. I am glad to see somebody happy where they are 
at.
    Ms. STOUT. Yeah, thank you.
    Mr. CHABOT. Okay. And finally, Mr. Connors, it is tough to 
get more rural than some parts of northern Maine. And I have a 
two-part question. I will try to get it real quick because my 
time has almost run out.
    Do you happen to know the percentage of northern Mainers 
that have access to high-speed internet and those that do not? 
And secondly, with the advent of 5G technology and the way it 
is transferring the way we all communicate, do you happen to 
know what percentage of Maine has access to the 5G or 4 or 3 
for that matter?
    Mr. CONNORS. I am from northern Maine originally where I 
was a city manager for years. I mentioned earlier in my 
response that there are 83,000 individuals that do not have 
access to broadband, and those are in the rural area 
predominantly of our state. And when you go north, there are 
pockets. That is the irony of this issue. Within that 83,000 
without access, you will find that in certain places where you 
least expect it, there is adequate service for that character 
of whether it is the business or the individual. But I would 
say a large percentage would be in my part of the state where I 
came from.
    Mr. CHABOT. Thank you very much.
    My time has expired, Madam Chair. Thank you.
    Chairwoman VELAZQUEZ. Yes, the gentleman's time has 
expired.
    And now we recognize Mr. Golden from Maine, Chairman of the 
Subcommittee on Contracting and Infrastructure.
    Mr. GOLDEN. Thank you, Madam Chair.
    You know, Mr. Connors, I am sure that you have members back 
home in Maine who run businesses very similar to Mr. Ingersoll 
and Ms. Stout.
    Mr. CONNORS. Yes.
    Mr. GOLDEN. I see you nodding your head as they talk about 
some of the opportunities and challenges that they face working 
what they do.
    You were commissioner of the Department of Maine 
Transportation for a number of years. And through my time in 
politics I have traveled around and talked to businesses. I 
think we both agree normally I hear their top concerns in 
Maine, infrastructure, workforce, high energy costs, and then 
regulation falls into the mix. Just thinking about the way that 
we fund our roads and bridges, which I know you are very 
familiar with, I mean, we have got Federal highway, state 
highway fund. We do some municipal stuff. Throw that into the 
mix. Some bonding in Maine as you know. Would you agree that 
broadband, or even access to faster internet in a lot of rural 
areas of Maine has essentially become the economic highway of 
the 21st century?
    Mr. CONNORS. Absolutely.
    Mr. GOLDEN. Just as critical?
    Mr. CONNORS. Yeah, I mean, thank you for that opening 
because I was commissioner for 11 years and I used to go around 
the state preaching the gospel that highways and bridges and 
transportation are the foundation of our economic system. And 
the following comment would be, it costs a lot to build and 
maintain but it costs a lot more not to. And you know what? The 
very parallel between transportation and this issue is striking 
because frankly, it has many of the same features, both in 
terms of its impact, but it also has many of the similar 
features in terms of how we resolve it. Those 83,000 that do 
not have access, that answer is going to come about when we 
share responsibilities, like when the Electrifying America took 
place we were all at the table. When we are looking at this 
issue, we need to be all at the table. And priorities will be 
given to usage and those types of things, but I think your 
point is spot on that I would say that in my opinion, while 
infrastructure overall is extremely important to our state as 
well as any state, broadband, high-speed internet connection is 
the key to our future. It is borne out in this report. To me it 
is parallel with transportation and does not deserve any other 
priority than a top priority.
    Mr. GOLDEN. Thank you very much. Knowing how important it 
is to our economy and all the members of the Maine State 
Chamber of Commerce, I am sure if you had the capital, if your 
members could afford to build that infrastructure themselves 
they would do it; correct?
    Mr. CONNORS. Absolutely. And I think that is a point to be 
made, is that our providers have done well. Bearing in mind the 
characteristics of our state, how rural we are, how small 
business we are and that type of thing, that they want to do it 
but the return on investment is simply not there. And that is 
why we need that partnership to develop it. When we do and when 
we deal with the digital literacy, because not everyone is 
aware of the incredible potential that exists, the value that 
it brings. It has expanded fast and that is good, but there is 
more to do. And I think the answer lies in all of us coming 
together. And as you know, our governor has teed this up with 
an expectation of major bond issues this year and the next 
several years.
    Mr. GOLDEN. And so as the state of Maine looks to put a 
little bit of skin in the game----
    Mr. CONNORS. Absolutely.
    Mr. GOLDEN.--and taxpayers show us that they are willing to 
make those investments in infrastructure, some Federal help 
would be important?
    Mr. CONNORS. Yes, it would. And I think that is the 
relationship that we need to fix this issue.
    Mr. GOLDEN. Thank you.
    Mr. CONNORS. To address the issue.
    Mr. GOLDEN. I appreciate that very much.
    Just shifting gears very quickly with the last minute I 
have left, since Mr. Ward is from Maine, I have to ask you a 
question as well.
    You touched on this a little bit. As Congress is looking 
into privacy matters pertaining to the digital world and some 
of the people that you work with, your business included, and 
this includes in state legislatures. I am sure that you 
probably are advocating on these issues around the country. As 
we look into privacy regulation, would you support small 
business exemptions? And if so, where is the trigger? At what 
size does a company grow so large that we have to have some 
regulation to make sure that consumers are being protected in 
terms of their privacy in data and information?
    Mr. WARD. Thank you, Congressman.
    We are talking about data privacy. 3C generally opposes 
carve out exemptions of any kind because frankly this is very 
important. It is important that we get this right. Data has 
been in the news a lot over the last several years, obviously. 
But if you are able to put a small business exemption or carve 
out into a piece of legislation, you are doing it because you 
believe the burden is too high. That the compliance burden is 
too high. And you are saying that the size of the company or 
the size of their user base matters more than the privacy of a 
smaller number of people, which frankly betrays the motives of 
the regulation in the first place.
    As a former Capitol Hill staffer and somebody who has been 
doing this for a little while, my advice to both Congress and 
to the state legislators would be to write a better bill. Do 
the job. Write legislation and regulation that applies to 
everybody. That raises the standard and the practice for 
companies large and small but has a compliance burden and a 
requirement of administration low enough that a two-person shop 
could do it. If we can do that with our own taxes, we can do it 
with data privacy.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    And now I recognize the gentleman from Oklahoma, Mr. Hern, 
Ranking Member of the Subcommittee on Economic Growth, Tax, and 
Capital Access for 5 minutes.
    Mr. HERN. Thank you, Madam Chairwoman.
    I appreciate the opportunity to speak to you all today and 
ask you questions, and thank you all so much for being here. 
Especially thank you, Mr. Ingersoll, for your story, for what 
you have done, how you have been successful, and truly you 
realized the American dream. It is different for all of us, I 
think you would agree.
    As a business owner and job creator for over 34 years, I 
know firsthand how difficult it is to quantify broadband access 
into our rural communities and how valuable this access can be 
to our small business. Again, as a lifelong small business 
person, my goal is always try to keep government out of my way 
so I can do the things that, you know, truly compete with one 
another.
    I only have one question, and I would like to ask each of 
you the same question. So obviously the person who goes last 
can get a real opportunity here. But when it comes to 
broadband, all of us on this Committee are probably getting 
asked whether this should be a government-driven project or a 
private industry-driven project. Could you give me your 
thoughts on that?
    We will start with you, Mr. Connors.
    Mr. CONNORS. In our state it has been privately driven. We 
are at the point today where government at the state level has 
recognized its value and the need to participate. And we would 
look forward to having the Federal Government be a part of that 
answer. I think it involves all of us. But to date, let me be 
clear, it has been privately d riven almost entirely.
    Mr. HERN. Okay. Mr. Ingersoll?
    Mr. INGERSOLL. Where I am from, you know, it is private, 
but I believe they are controlled monopolies. So the 
telecommunications company that I deal with has really no 
incentive to send someone to rural areas when they are having 
issues with higher population centers. I see the internet as a 
public utility, so whatever is going to provide the best 
service to the people, I am all for it. I really do not have an 
opinion one way or the other aside from that.
    Mr. HERN. My assumption is being an entrepreneur yourself 
that you would like to see two people compete in the area for 
the same business of some sort?
    Mr. INGERSOLL. Yeah. For sure.
    Mr. HERN. To drive down cost and to drive up access?
    Mr. INGERSOLL. More than anything, improve the quality of 
service.
    Mr. HERN. Sure.
    Ms. Stout?
    Ms. STOUT. Very similar to Mr. Ingersoll. I have a couple 
of options for internet in my town and it is public driven. I 
think the government could help. But yeah, definitely having 
more competition would help and increasing the reliability, for 
sure working on that, making sure there are certain standards 
and they have to stick with what they say they are giving you 
would help. Thank you.
    Mr. HERN. You are welcome.
    Mr. Ward?
    Mr. WARD. I guess I have the advantage because I get to go 
last?
    Mr. HERN. Sure.
    Mr. WARD. I think that a public-private partnership is 
really the only solution when you are talking about both 
controlled monopolies and natural monopolies. The technological 
feasibility of the last mile is hard enough. It is even worse 
when it has to go through 20 miles of forest to get to two 
people. You cannot make that math work in an open market 
purely. There has to be a partnership.
    Mr. HERN. Very good.
    Well, I thank each of you for this. I have listened to all 
your testimony obviously since I have been here. Again, I 
apologize, like the Chairman, there are so many Committee 
hearings going on today. But thank you all so much, and it is 
great to see, especially what you did from figuring out a way 
to be successful, and that is an awesome story. And there is 
nothing greater in this country than to have the opportunity to 
start a job. I would challenge you to hire somebody though 
because the world changes when you have employees.
    Thank you so much. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back, and now we 
recognize Mr. Delgado from New York for 5 minutes.
    Mr. DELGADO. Thank you, Madam Chair.
    Mr. Ingersoll, thank you for taking the time from your 
business in Sloansville to testify here today. It is great to 
hear all that you have accomplished in the face of tragedy. The 
Committee appreciates you sharing your story.
    It is clear that reliable internet access is critically 
important for someone like you to get online and reach your 
customers, and I really agree wholeheartedly with the way you 
framed the issue in terms of being a public utility. We know 
that about 40 percent of rural Americans lack broadband 
internet access, and 25 percent of my home district does not 
have a broadband subscription. Clearly, we need rural 
investment in broadband services, but it also strikes me, and 
you spoke about this in your testimony, that like broadband, we 
need universal, affordable Postal Service that ensures that 
rural businesses can reach their customers. And so we spent a 
bit of time talking a lot about the rural broadband piece, and 
I would love to hear from you a bit more on the impact on rural 
communities if the Postal Service was privatized.
    Mr. INGERSOLL. I have concerns about it being prioritized 
just because like right now with UPS, FedEx, and these other 
carriers that are private companies, they charge rural 
surcharges, fuel surcharges, and all these sorts of things to 
deliver it to these rural areas. The post office makes it very 
accessible, and if you want to keep the barrier of entry low 
for ecommerce in general, the Postal Service is the only one 
that is really going to provide that service where you can be 
competitive with larger companies that have their own logistics 
networks and their own deals with carriers to compete with a 
bigger advantage over someone who is just starting out. So I 
would say privatizing it would be a big concern to me because 
rural America is going to be cut out of the deal. Or at the 
very least you are going to increase the cost for people who 
are already struggling.
    Mr. DELGADO. So it would specifically hurt your business?
    Mr. INGERSOLL. Yeah, it would specifically hurt me.
    Mr. DELGADO. In terms of the overhead and the cost 
increases.
    You talked about controlled monopolies. Another insight 
that I agree with. And the need to figure out how government 
needs to play a role, whether it is in partnership with private 
actors or otherwise, and specifically, given the fact that 
rural communities time and time again, particularly as we lurch 
toward privatization in almost every public sector, is leaving 
specifically rural communities behind because they do not have 
the population centers to incentivize private actors to make 
the investment. And so while we might have access and have had 
access for some time, as you note, since 2008, we see the 
disproportionate disadvantages that the rural communities are 
struggling with.
    Could you speak a bit more about how the quality, or lack 
thereof, of your broadband access has really impacted your 
ability to conduct business?
    Mr. INGERSOLL. Well, as ecommerce has evolved, buyer 
expectations have increased. So it is much more of a priority 
to process orders quickly and things like that. If your 
internet goes down and you have no other way to process those 
orders, it is going to negatively impact you. And as ecommerce 
continues to grow, competition increases, people in more urban 
areas with better access to internet are having a big advantage 
over their rural competitors because of that. I think it is 
essential to even the playing field in that regard.
    Mr. DELGADO. Excellent. Thank you very much.
    I yield back.
    Mr. INGERSOLL. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And Mr. Stauber, the gentleman from Minnesota, is 
recognized for 5 minutes. He is the Ranking Member of the 
Subcommittee eon Contracting and Infrastructure.
    Mr. STAUBER. Thank you, Madam Chair. And to the witnesses, 
thank you for your testimony.
    I, too, am a small business owner for 28 years in rural 
northern Minnesota, and so I understand what you are going 
through and some of the concerns. One of the things, we talk 
about broadband being deployed. What I have said is high-speed, 
dependable internet is not a luxury anymore. It is an absolute 
necessity. And rural America seems to be put on the back 
burner.
    Mr. Ward, I appreciate your comments about it has to be 
that public-private partnership. Rural Minnesota, rural America 
is left behind and it is not acceptable anymore. And so I hear 
my colleagues from Colorado and Iowa saying the same thing. We 
have a lot of support for deploying that broadband, and I love 
the fact that you all have nodded your head when you understand 
that competition is good for deploying that because competition 
is good for the consumer and we know that for a variety of 
reasons, dependable broadband is absolutely needed.
    We can go in some of our rural areas that are just miles 
apart the same value of a home, a resale of a home is going to 
go higher when it has a dependable broadband and high-speed 
service.
    Mr. Ingersoll, you talked about the Postal Service and I 
really appreciate that. In a time when everything is online and 
digitalized, I think we forget how many people and industries 
depend on dependable Postal Service, which make our experience 
as consumers possible and help expand small businesses like 
yours.
    I have recently cosponsored a number of resolutions to 
maintain important aspects of the Postal Service, such as door 
delivery and 6-day mail service so that we can continue to 
support small rural businesses across this Nation.
    As Congress continues to discuss postal reform, what are 
some of the biggest challenges you foresee should the Postal 
Service become limited in rural areas? And please give me an 
estimated annual cost to your business if the Postal Service 
does not continue the 6-day service or limits its rural 
delivery and pickups.
    Mr. INGERSOLL. It would be tough for me to speak to an 
exact number on that just because I do not know exactly what 
percentage of my customers are in a rural area. Typically, the 
nature of my business, you are going to get more of a rural 
customer base than an urban customer base just because people 
are not riding ATVs in cities.
    But, I mean, overall, if you limit that, I am going to have 
to stop using the Postal Service and, you know, spend more to 
go with FedEx, UPS, someone that is going to offer delivery 
that a customer is going to expect. Unfortunately, I do not set 
the precedent for what a customer expects. Larger companies do 
that negotiate their own deals with carriers. So it puts me at 
a big disadvantage in comparison to----
    Mr. STAUBER. Well, can you just give me an idea of the 
amount of product you sell and send? Give the Committee an 
idea, just a rough guess what it would cost if you had to add 
those additional charges from other competitors.
    Mr. INGERSOLL. Well, first off, we use a lot of the 
priority and regional boxes, which are supplied by the Postal 
Service. We send about 8,000 shipments a year with the Postal 
Service. So the average cost of a box is around $1 if I had to 
buy it, so there is $10,000 in costs. The next nearest carrier 
that offers a comparable service to USPS and the flat rate 
program is FedEx, and they are on average about $5 more per 
shipment than Priority Mail. So five times $10,000 plus, you 
know.
    Mr. STAUBER. It would be a significant increase?
    Mr. INGERSOLL. Yes.
    Mr. STAUBER. Thank you very much.
    And with my last 30 seconds here, Mr. Ward, you talked 
about you have worked on The Hill, and you made a statement to 
both the House and Senate, `` Then make a better bill.'' I can 
assure you that is exactly why I ran, to make sure that rural 
America, rural Minnesota, we matter. And I appreciate those 
comments, and we are going to work that. And with your 
testimony, your expertise, it helps us also. I want to thank 
you all for taking your time and giving us your stories. And we 
appreciate it.
    Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now we recognize the gentlelady from Pennsylvania, Ms. 
Houlahan, for 5 minutes.
    Ms. HOULAHAN. Thank you. Thank you, Madam Chair.
    My name is Chrissy Houlahan. I am a small business and 
entrepreneur person as well, and I have grown a lot of 
businesses from the beginning and did online sales back in the 
early 2000s of footwear and apparel, so I know the trials and 
tribulations of trying to start up a business and trying to get 
things into a box to where they are going across the country 
with all of its ancillary problems. And my questions I guess 
have to do a little bit for Mr. Ward, your conversation and 
your testimony both orally and written, that had to do with an 
emphasis on public and private partnerships for small 
businesses to worry about things like cybersecurity and 
cyberspace. And I was wondering if you could put a little bit 
more meat on the bone of what you mean by a public and private 
partnership and how those small businesses can be tapped into 
being able to be safe and secure online.
    Mr. WARD. Certainly. Thank you. I appreciate the question.
    It is amazing how many small business owners are members of 
Congress now, is it not? I think there is something that has to 
do with the experience of starting your own business and 
dealing with a myriad of problems at the same time.
    It is beyond the pale to also ask small businesses to 
consider how to pay the bills, how to deal with the logistics, 
how to have a good idea, how to deal with their staff, and to 
become IT experts. Right? And far too often the burden of 
running a small business can become overwhelming if you do not 
have answers. If you do not have somebody to turn to on 
guidance.
    On the issue of cybersecurity, I think most small 
businesses would feel very alone indeed. One of the issues is 
that ransomware, hacks, breaches, data theft generally, they 
put small businesses completely out of business. They are 
extinction-level events because they cost so much, but also 
because the compliance required is far over the head of most 
small business owners.
    Ms. HOULAHAN. But what does a private-public partnership 
look like?
    Mr. WARD. So if the SBA, for example, were given more 
resources and more guidance on how to make training available 
and how to make the tools and resources available for small 
businesses, we would be more likely to use them. Additionally, 
there needs to be a safe harbor. There needs to be a place, a 
way for small businesses to report hacks and breaches that does 
not feel like it is going to be the end of their business. The 
next piece I think that is essential is we have to find a way 
to better fund prosecution of these hacks and data breaches. I 
do not have the numbers directly in front of me but I believe 
it is something like 1 percent of all cyberattacks are ever 
reported, and less than 10 percent of those are ever intervened 
or prosecuted. There are no deterrents. And without the public 
enforcement, there is no private incentive. And so there needs 
to be a better understanding between small businesses and the 
SBA, Department of Commerce generally, DHS specifically, on how 
they can work together to harden the target that is small 
business datasets. Because cumulatively, that is valuable data, 
but too often we pay attention to the large breaches--hotel 
chains, retail stores--because it is bigger. It is more data. 
Cumulatively, there is just as much data in the small business 
community.
    Ms. HOULAHAN. Thank you. And I appreciate your feedback. 
And I have one question. I hate to keep coming back to the 
USPS, the Postal Service thing because it is intriguing to me 
as somebody who is in charge of operations and shipping and 
logistics. But can you try to quantify the impact if you needed 
to go to DHL or to FedEx and you were on longer able to use the 
USPS as 80 percent of your shipments are going out of the USPS, 
would you be able, Mr. Ingersoll, to talk about the impact on 
the bottom line?
    Mr. INGERSOLL. The effect that would have, it would make 
what I do, it would not be a viable option any longer. The 
problem is it is a lot of reproduction, Chinese parts, whereas 
I sell OEM parts that are coming over, and they are already 
within competition to us but the problem is if my costs 
increase it would price me out completely. My customers are 
typically lower income and they will not spend extra money for 
the same thing they were used to purchasing before.
    Ms. HOULAHAN. Thank you. And my last question has to do 
with kind of the impact of women-owned businesses, and I am 
interested in trying to understand from you, Ms. Stout, if you 
can tell me a little bit about--I know the question was about 
family leave, and I think you came back around appropriately to 
health care as being probably the biggest issue. What would it 
look like to feel like you were supported to be able to have a 
small business in terms of access to healthcare quality, 
affordable, accessible healthcare? What are the pressure points 
for you right now as a small business owner?
    Ms. STOUT. Thank you for the question. It is pretty in 
depth, I think.
    Ms. HOULAHAN. And I have 8 seconds left.
    Ms. STOUT. There is a lot that goes on with it. I think 
just having better options. It was very hard for me to navigate 
when I was searching and looking for things to help support my 
family once I realized that I was going to need to find another 
solution.
    Ms. HOULAHAN. And maybe what I can do since I am over time 
is afterwards I can find you.
    Ms. STOUT. Yes. Yes. Please follow up.
    Ms. HOULAHAN. And learn from you. Yeah.
    Ms. STOUT. I would love to answer.
    Ms. HOULAHAN. I appreciate your time, all of you.
    Ms. STOUT. Yes, of course. Thank you.
    Ms. HOULAHAN. Thank you so much.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    And now we recognize Mr. Burchett from Tennessee.
    Mr. BURCHETT. Thank you, Chairlady. And I appreciate you 
all being here. I, myself, have done a little eBay. I think I 
had over 1,000 transactions on eBay. Last week I sold a pair of 
jeans, and I know when my daughter watches this when she gets 
home from school that that money will probably be back out in 
the economy before I can get home. So I am looking forward to 
that.
    As a matter of fact, when I was in the legislature in 
Tennessee, I carried legislation for eBay. I did not profit 
from it. It was not that type of a situation. It was just some 
clarification in the law of where they were. But all the 
questions really have been asked that I had, but this is sort 
of a catchall, and I am always asking folks this, and I would 
like just an honest answer. We can start down at the end.
    Mr. Ingersoll, I ride a few bikes myself. Mine are all old 
kick starters though. They are not electric starts or anything 
quite as fancy as what you deal with. But I guess my catchall 
question is, would you all be willing to explain any burdens 
that you see that government is placing on small businesses 
right now that if you could have changed overnight you would? 
Yeah, go ahead. I want everybody to answer that, too, if they 
could.
    Mr. INGERSOLL. As far as the Federal Government, aside from 
some of the tax policies not being formed around sales tax, the 
thing about bringing opportunity to these rural areas is 
keeping the barrier of entry low. And when you need to keep 
track of 50 different sales tax, it becomes a real problem 
because if you are starting out with $20,000 or $30,000 in 
sales just trying to make a living or something like that and 
you need to keep track of all that, you have to hire an 
accountant, you may have to implement software to track it all. 
And you do not want to make it more difficult than it needs to 
be for someone to go out there and compete because if you are 
going up against someone like Amazon, they have the resources 
to handle that. A small company does not.
    Mr. BURCHETT. Do any of the websites that you sell--I guess 
you just sell primarily on eBay. Do they currently now take the 
sales tax out for the states that are not brick and mortar in 
your state or however?
    Mr. INGERSOLL. I believe anyway that it is a marketplace 
nexus.
    Mr. BURCHETT. Okay.
    Anybody else have problems?
    Mr. WARD. I have several problems with the regulatory 
burdens. But I think the primary burden that both state and 
Federal Governments currently are placing on small businesses 
that we can talk about today is uncertainty. Uncertainty for a 
small business is fatal. Not knowing what the market looks 
like, not knowing what access to tools or talent or broadband 
will look like in 18 months makes it incredibly difficult to 
plan. For large businesses, market uncertainty can be an 
opportunity. For small businesses it is incredibly detrimental. 
We need to figure this out sooner than later in order to 
restore some level of sanity to the marketplace.
    Mr. CONNORS. I would add to that, uncertainty clearly is an 
issue, particularly as it relates to this effort. But for most 
businesses, the companion piece would be predictability. There 
is not a problem for most businesses to recognize you need to 
be regulated, you need to address certain issues, but when 
those areas or when those issues change or the regulations 
around those issues change, that becomes a real problem. So 
with uncertainty would also be the need for predictability 
within any regulation.
    Mr. BURCHETT. Right. I think something that troubled me was 
you would find out after the fact.
    Mr. CONNORS. Exactly.
    Mr. BURCHETT. And it is very tough to retroactively pull 
that back.
    Mr. CONNORS. Yes.
    Mr. BURCHETT. And it hurts the small businesses. Big 
businesses, they have accountants and lobbyists and lawyers up 
here and they can tell them exactly.
    Mr. WARD. Something has happened over the last 5 to 10 
years where we have developed in terms of a digital tool stack 
for small businesses. Right? You can get your email through 
Gmail. You can use Infusion Soft to do your CRM. You can use 
Amazon as a marketplace or eBay as a marketplace. And some of 
these other logistics groups. The price point for those tools 
is as low as it is because of math that has been done at the 
larger level. If you change that business model for larger tech 
companies or even platforms generally, you also change the math 
for the small business. So most of that burden is inadvertent. 
Right? Nobody was aiming for small businesses. But if you aim 
at the top of the interconnected digital economy, you are going 
to hit the bottom.
    Mr. BURCHETT. Thank you, all. I am out of time. And I 
appreciate you all's entrepreneurship and being willing to roll 
the device.
    And ma'am, if you had been here, all these people got tax-
free status for a year but since you walked out you missed your 
opportunity.
    Thank you, Chairlady, for an excellently run meeting. Thank 
you, ma'am.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    We now recognize the gentlelady from Minnesota, Ms. Craig, 
for 5 minutes.
    Ms. CRAIG. Thank you so much, Chairwoman. And thanks to 
each of you. Sorry, I have been in and out, too, but I am also 
on the Transportation and Infrastructure Committee, so we are 
working hard to have those conversations about how we can bring 
rural broadband, high-speed internet to every single part of 
America to help us revitalize and allow you to continue to 
build those small businesses.
    So a lot of the questions certainly have been asked today. 
And Mr. Ingersoll, I wanted to just start with you. You have 
talked about that rural broadband being essential to ensuring 
the success of your small business. In our hearing here last 
week, we focused on the relationship between broadband and the 
potential larger infrastructure package that we are going to be 
considering we certain hope. Such a package is likely to 
support our existing Federal Recreational Trails Program, and 
that helps fund the development and maintenance of many trails, 
including ATV trails, which is very popular back in my home 
state of Minnesota as well.
    My question to you is then, what do you see as the most 
viable path forward to get broadband out to our rural 
communities and make that a reality? And if we are unsuccessful 
in some of those areas, what does that do in terms of affecting 
your business?
    Mr. INGERSOLL. Well, I mean, anyone that does not have 
access to the internet that they can, you know, if they cannot 
easily navigate it or it is consistently down, they are not 
going to feel comfortable shopping online. They are going to 
look for other outlets for whatever they are trying to search 
out because a lot of these rural communities, you have groups 
of people who are not familiar enough with the internet yet to 
have trust in it. They do not understand aspects of it. So I 
think that reliable service would be the foundation of that. 
And I think the future is ecommerce. So ensuring that everyone 
has access to it in a similar manner is essential for any 
business to grow in the business.
    Ms. CRAIG. Thank you.
    I worked for a big business for about 2 decades, two 
different big businesses. And after that I ended up becoming a 
senior advisor before being elected to Congress to a small 
startup company. So I just want to say how much harder it is to 
work for a small business than it is a large business in this 
country. And I applaud you, Ms. Stout, for the work that you 
did to build your business. It is wonderful.
    Let me ask this question of both of you though. What would 
you do different if you had to start this all over again? What 
mistakes did you make and is there any advice to entrepreneurs 
and small businesses? And how can we take that into account as 
we look at either regulation or infrastructure decisions?
    Mr. INGERSOLL. I would say initially I underestimated the 
potential that marketplaces like eBay have. I was thinking much 
smaller initially than I should have and long term it would 
have benefitted me to realize that opportunity earlier. Outside 
of that, there is not really much I would change as far as how 
I operated and grew my business. The one thing though that 
needs to be considered I think with policy is businesses have 
shifted from being larger retail outlets to being very low 
revenue, one to five person operations. And if policy is not 
formed around that it is just going to push that opportunity to 
larger companies and unless you want to work in a fulfillment 
center, there is not going to be opportunity in these areas 
that are going to be impacted.
    Ms. CRAIG. Ms. Stout, do you have anything to add?
    Ms. STOUT. Similarly to what Mr. Ingersoll said, I would 
have started sooner if I would have known what I know now. 
Things went a lot better than I expected also. And also, yes, 
gearing more policy towards smaller businesses and not assuming 
that we all want to be large businesses because some of us do 
not. Some of us want to just support our families and 
communities. And that would be very, very helpful. Thank you.
    Ms. CRAIG. Thank you both for your story and for your 
commitment to small business and the country. Thank you.
    Madam Chairwoman, I yield back my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now we recognize the gentleman from Illinois, Mr. 
Schneider, for 5 minutes.
    Mr. SCHNEIDER. Thank you. And I want to thank the 
Chairwoman for hosting this hearing, and as always, to thank 
the witnesses for (a) your perseverance in staying here until 
the end, and I appreciate you waiting, but more importantly, 
for sharing your perspectives and experiences is critical.
    We are talking about unlocking the potential of digital 
economy in rural communities. I am also on the Ways and Means 
Committee. Last week we had a hearing on infrastructure. And I 
represent the northern suburbs of Chicago. Not a lot of rural. 
But I understand how important rural broadband is and I made 
the point there that we need to absolutely make rural broadband 
part of whatever infrastructure conversation we have to empower 
and make sure that not just small businesses but rural 
communities can compete. But I also know from my experience 
working with businesses large and small how important and how 
wonderful small businesses are. I happen to think that I prefer 
the small business world. I prefer being my own boss. And I was 
thinking, Mr. Ingersoll, you mentioned with bigger, and coming 
from Chicago I thought of Daniel Burnham, and I just looked up 
the quote to make sure. But it is `` Make no little plans 
because they otherwise have no magic to stir the soul.'' This 
is what is about, is hopefully your businesses do stir your 
soul, and in so doing, you and millions of others, 29 million 
small businesses in the country, that is what can drive and 
always has driven our economy. But we need to make sure we have 
that access, the access to technology and the new successes.
    But with those new successes there is also going to be 
challenges. And one of the challenges which I know we have 
talked about a bit is cybersecurity. Last Congress I was 
fortunate, I was able with my colleagues to introduce the Small 
Business Cybersecurity Enhancement Act, which will help 
businesses address their gap in cybersecurity needs from 
enhanced technology defenses to security awareness training. 
And it is key because as you said, while maybe a smaller 
business, it can be a gateway to a bigger breach. I do not care 
if it affects millions or me alone, me alone is a big impact. 
And for everyone who is affected that is true.
    To our business owners, my question to you is what degree 
do you keep cybersecurity concerns in mind as you look to 
expand your business as you think about those big plans? How 
are you addressing those vulnerabilities? And for Mr. Ward in 
particular, how are groups like 3C working with members to 
shore up these vulnerabilities and ensure everything from 
payment platforms to consumer information are protected?
    Mr. INGERSOLL. Me?
    Mr. SCHNEIDER. Anyone? Yeah.
    Mr. INGERSOLL. Using eBay is a big advantage because I do 
not have to deal with storing that data or even handling it. 
They are controlling that completely so that burden is entirely 
off me. It is not even a concern.
    Mr. SCHNEIDER. Great.
    Ms. Stout?
    Ms. STOUT. Very similar to Mr. Ingersoll, again. I mostly 
work through Etsy and PayPal invoicing so I do not see any 
secure information. It is all taken care of for me which is 
very, very helpful. I would not want to have to deal with it. 
Thank you.
    Mr. SCHNEIDER. Before I go to Mr. Ward, Mr. Connors, 
anything you want to add?
    Mr. CONNORS. Well, I would add that it is a real concern to 
businesses, needless to say. And we have tried to bring as much 
information through Federal agencies and so forth to our state 
to help educate and inform our businesses as to the 
vulnerability, but also the things you can do to help address 
it.
    Mr. SCHNEIDER. Right. Great.
    And Mr. Ward, I will give you the last word. Because we 
talked earlier with the question of the public-private 
partnerships. This is where I do believe industry, government, 
educational institutions, groups like yours, can work to raise 
the bar and give the security our small businesses need. So I 
will leave you with the last word, the last minute.
    Mr. WARD. I agree with that. So in reverse order, 3C is 
relatively new to this space. We launched less than a year ago 
but are growing pretty rapidly and cybersecurity training and 
resources are at the top of the list we would like to deliver 
to our small business members. Working with SBA and state 
governments to hone those materials would be a welcomed 
opportunity.
    The biggest, the most often utilized tool for cybersecurity 
is what you just heard here. It is the platforms that offer 
secure data management, resources, and sort of take that burden 
off the small business. What I am worried about particularly in 
state legislative proposals right now, the California Consumer 
Privacy Act, for example, takes away some of that protection by 
classifying small businesses that cross over into compliance 
requirements at 50,000 installs, for example. They then become 
responsible for data sets. So if you are a realtor that has 
50,000 names entered into a database, it does not matter that 
you are storing it in a Google doc. You are now responsible for 
that data and you cannot rely on a platform to hold your hand 
through that process. So the long answer is--I am sorry, the 
short answer is we are eager to help our members. Do you want 
the long one?
    Mr. SCHNEIDER. Thank you. I appreciate that. And before I 
yield back, Madam Chairwoman, what I would like to add is we 
are at the frontier. These are new opportunities. Our small 
businesses are always at the frontier, whether it was the 
Industrial Revolution or today with the digital revolution. But 
there will always be unexpected surprises along the way. There 
will be unintended consequences. Together, working together, 
industry, policymakers, we have to find a way to ensure data 
security, create the opportunities through rural broadband and 
other digital access, and make sure that we are providing our 
entrepreneurs, American businesses, the chance to grow the 
American economy.
    With that I yield back.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    I want to take this opportunity to again thank all the 
witnesses for taking time out of your busy schedule to be here 
and share your stories, to bring to the halls of Congress the 
importance of including small businesses, but especially rural 
America. This is a bipartisan issue, and hopefully we all come 
together and build a consensus around an important issue that 
will unlock economic opportunities across the country.
    Whether it is purchasing transnational flights or providing 
distant telehealth services, the internet has completely 
changed our society. Most of all, digital platforms have 
changed the way entrepreneurs reach new and existing customers. 
But without reliable broadband, these new opportunities and the 
economic activity associated with them is severely hampered. 
That is why we must ensure digital tools reach every American 
wherever they call home.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 1:06 p.m., the committee was adjourned.] 
    
    
    
    
    
    
                            A P P E N D I X



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
